<html>
<title> - CHALLENGES IN SBA'S STATE TRADE EXPANSION PROGRAM</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
           CHALLENGES IN SBA'S STATE TRADE EXPANSION PROGRAM

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON RURAL DEVELOPMENT, AGRICULTURE, TRADE, AND 
                            ENTREPRENEURSHIP

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             MARCH 12, 2019

                               __________

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                               

            Small Business Committee Document Number 116-010
             Available via the GPO Website: www.govinfo.gov
             
             
                               _________ 
                                  
                     U.S. GOVERNMENT PUBLISHING OFFICE
35-333                       WASHINGTON : 2019                
             
             
             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                        TRENT KELLY, Mississippi
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                   
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Abby Finkenauer.............................................     1
Hon. John Joyce..................................................     3

                               WITNESSES

Ms. Kim Gianopoulos, Director of International Affairs and Trade, 
  Government Accountability Office, Washington, DC...............     4
Mr. Hannibal ``Mike'' Ware, Inspector General, United States 
  Small Business Administration, Washington, DC..................     6

                                APPENDIX

Prepared Statements:
    Hon. Jim Hagedorn, Minnesota.................................    15
    Ms. Kim Gianopoulos, Director of International Affairs and 
      Trade, Government Accountability Office, Washington, DC....    16
    Mr. Hannibal ``Mike'' Ware, Inspector General, United States 
      Small Business Administration, Washington, DC..............    29
Questions and Answers for the Record:
    Questions from Hon. Nydia Velazquez to Mr. Hannibal ``Mike'' 
      Ware and Responses from Mr. Hannibal ``Mike'' Ware.........    37
Additional Material for the Record:
    None.


           CHALLENGES IN SBA'S STATE TRADE EXPANSION PROGRAM

                              ----------                              


                        TUESDAY, MARCH 12, 2019

                  House of Representatives,
               Committee on Small Business,
    Subcommittee on Rural Development, Agriculture,
                               Trade, and Entrepreneurship,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:11 a.m., in 
Room 2360, Rayburn House Office Building. Hon. Abby Finkenauer 
[chairwoman of the Subcommittee] presiding.
    Present: Representatives Finkenauer, Chabot, Hagedorn, and 
Joyce.
    Chairwoman FINKENAUER. Good morning. The Subcommittee will 
come to order.
    It is a pleasure to have our witnesses testifying before 
our Subcommittee this morning. I commend you for your 
commitment to public service. I also want to take a minute to 
thank Ranking Member Dr. John Joyce of Pennsylvania. He 
introduced himself to me very early on and expressed how 
important trade and rural development was to his district. I am 
glad we share that as a common priority, and I look forward to 
working with him in a bipartisan fashion on this Subcommittee.
    As someone who grew up in a small town in Iowa--as I like 
to say, in a town with more cows than people--I am thrilled to 
be leading this Subcommittee focused on rural development. We 
have an opportunity to give folks in districts like mine and 
Ranking Member Joyce's a seat at the table for important 
conversations like the one we are having today on helping 
farmers and small businesses export their products.
    It is no secret that for rural entrepreneurs and family 
farmers in states like Iowa, the ability to do business 
overseas is key to economic success here at home. Trade should 
help us export goods but also protect our workers and our 
communities.
    Despite the economic rewards that come with exporting 
products overseas, only 1 percent of our nation's 30 million 
small businesses are able to do so.
    With 95 percent of the world's consumers living outside of 
the United States, small businesses are missing out on 
opportunities to better support their families and communities, 
create jobs, and expand our economy.
    Today, we have a chance to hear from some of our nation's 
leading experts on a federal program that aims to help small 
businesses enter new markets around the globe. This initiative, 
the State Trade and Expansion Program (STEP), was initially 
created in 2010 as a 3-year pilot program. Five years later, 
Congress enacted the Trade Facilitation and Trade Enforcement 
Act to make the STEP program permanent and authorize $30 
million in funding through fiscal year 2020.
    STEP provides matching funds to states and territories to 
help small businesses enter new markets, access export 
financing, and go on trade missions.
    Since its inception, the Small Business Administration has 
awarded approximately $139 million in funding to almost every 
state in the country.
    In the 2018 annual report, SBA reported that the agency 
awarded 44 grants totaling $18.9 million in fiscal year 2016. 
The rate of return was 31 to 1 for every dollar invested, 
states reported $31 in sales.
    STEP has the potential to unlock opportunities in the 
global marketplace for small businesses in a town like 
Maquoketa in my district, whose owners may want to sell 
products overseas but could lack the staff capacity or even an 
idea of where to start.
    Having said that, the reports and audits conducted by our 
nation's watchdogs raise some concerns over the implementation 
of the STEP program and show areas for improvement as we look 
at the need for reauthorization in 2020. Work by the Government 
Accountability Office found that SBA lacks a strong process to 
ensure states are complying with the program's requirements. 
GAO also found states face serious and ongoing challenges in 
trying to utilize the funds with some even giving the funds 
back. Problems range from short application windows and 
difficult reporting requirements to a lack of timely 
communication from SBA.
    The Inspector General's audits uncovered similar problems 
and determined more work needs to be done to improve the 
program's performance measures and oversight. Moreover, the 
report showed that SBA is at risk of not fully realizing the 
potential of the program.
    My office had a chance last week to hear from the Iowa 
Economic Development Authority about problems in utilizing the 
funds. In one instance, Iowa was awarded a STEP grant on 
September 21st with a start date of September 29th, just 8 days 
later.
    In another instance, SBA announced a grant opportunity on 
April 2nd only to post a second announcement with new and more 
accurate information on April 18th. SBA did not respond to 
Iowa's questions about the application until April 27th, but 
the deadline for applying for the STEP grant was May 16th. That 
is a pretty tight turnaround.
    While this is frustrating, STEP is a needed initiative, and 
I look forward to hearing other states' ideas for improving it 
and hopefully getting some of our states on record in the 
future about how we can make STEP work better.
    In Congress, we ought to be making it easier for farmers 
and small businesses to succeed in the international 
marketplace-- not harder--while also protecting our workers. 
STEP has the potential to help Iowa's entrepreneurs and 
entrepreneurs around the country tap into new markets.
    If utilized properly, this program stands to provide small 
businesses with the tools they desperately need to expand, 
create jobs, and boost wages throughout America, especially in 
rural areas that quite frankly have been ignored for too long.
    Let me close by saying how grateful I am to have the 
opportunity to Chair this Subcommittee. I look forward to 
working with my colleagues on both sides of the aisle to 
harness the feedback we receive today to make much needed 
improvements to the STEP program for all of our communities, 
small businesses, and hard-working families.
    I want to thank our witnesses for being here for what I 
hope will be a productive discussion.
    I would like to now yield to the Ranking Member, Dr. Joyce, 
for his opening statement.
    Mr. JOYCE. Thank you, Madam Chairwoman Finkenauer.
    Small businesses eying international markets face daunting 
obstacles, such as insufficient manpower, lack of external 
resources, inadequate access to financing, and clearly, 
bureaucratic red tape. The Small Business Administration (SBA) 
is one of the six agencies that offer export promotion programs 
specifically for small businesses.
    The SBA Office of International Trade, often referred to as 
OIT, is responsible for a variety of programs that provide 
training, counseling, and export financing for small 
businesses. We are here today to review just one unique program 
within an exceptionally complex network of trade promotion 
programs.
    The statutes governing the State Trade Expansion Program, 
known as STEP, are very specific to ensure each dollar hits its 
target. Since its creation as a pilot program in 2010, SBA OIT 
has struggled to comply with STEP's strict legal requirements. 
One of Congress's most vital roles is not only to exercise 
fiscal responsibility when spending taxpayer dollars but also 
to ensure that the taxpayer dollars we allocate are being spent 
wisely and reaching their maximum impact.
    I appreciate the cooperation between all agencies and their 
commitment to seeing that SBA fulfills its goals relating to 
this program and maximizes every dollar received to help small 
businesses reach their potential in the international market.
    This hearing resumes the Committee's oversight of OIT and 
the STEP program. Our witnesses represent the Government 
Accountability Office (GAO) and SBA's Office of Inspector 
General (OIG). They are our eyes and our ears. They are here to 
present the issues plaguing the STEP program. I am encouraged 
by the dedication shown by all parties to expanding the 
opportunities for small businesses and farmers, and I look 
forward to working with you to achieve our common goal of 
reducing barriers to small businesses participating in global 
trade.
    Thank you again to our distinguished witnesses and I yield 
back.
    Chairwoman FINKENAUER. Thank you, Dr. Joyce. The gentleman 
yields back.
    If any Subcommittee members have an opening statement 
prepared, we ask that you submit it for the record.
    Now I would like to just take a minute to explain the 
timing rules. Each witness will have 5 minutes to testify and 
each member will have 5 minutes for questioning. There is a 
lighting system to assist you. The green light will be on when 
you begin and the yellow light will come on when you have one 
minute remaining. The red light will come on when you are out 
of time, and we ask that you stay within the timeframe to the 
best of your ability.
    I would now like to introduce the witnesses.
    Our first witness is Ms. Kimberly Gianopoulos. Ms. 
Gianopoulos serves as the director for international trade 
issues in the International Affairs and Trade Team at the 
Government Accountability Office (GAO). She has a distinguished 
career and has provided leadership in a number of efforts to 
improve government programs, including contributions to GAO's 
high-risk series. Ms. Gianopoulos has also received a number of 
awards, including a Meritorious Service Award, a Client Service 
Award, an Assistant Comptroller General's Award, and several 
Results through Teamwork Awards. Welcome, Ms. Gianopoulos.
    Our second witness is the Honorable Hannibal ``Mike'' Ware, 
the inspector general of the Small Business Administration. Mr. 
Ware was sworn in as the inspector general of the Small 
Business Administration in May 2018. He is responsible for 
independent oversight of SBA's programs and operations, which 
encompass more than $100 billion in guaranteed loans and nearly 
$100 billion in federal contracting dollars. Mr. Ware has 28 
years of experience within the OIG community and has received 
numerous awards throughout his career, including several awards 
from the Council of Inspectors General on Integrity and 
Efficiency in recognition of his significant work in the 
inspector general community. Welcome, Mr. Ware.
    Ms. Gianopoulos, you are recognized for 5 minutes.

   STATEMENTS OF KIM GIANOPOULOS, DIRECTOR OF INTERNATIONAL 
 AFFAIRS AND TRADE, GOVERNMENT ACCOUNTABILITY OFFICE; HANNIBAL 
``MIKE'' WARE, INSPECTOR GENERAL, UNITED STATES SMALL BUSINESS 
                         ADMINISTRATION

                  STATEMENT OF KIM GIANOPOULOS

    Ms. GIANOPOULOS. Thank you.
    Chairwoman Finkenauer, Ranking Member Joyce, and members of 
the Subcommittee, thank you for the opportunity to be here 
today to discuss our recent work on SBA's State Trade Expansion 
Program.
    As you know, Congress established STEP to help small 
businesses export. Many states report that STEP is important to 
their export promotion operations. However, concerns have been 
raised related to the management of the program, including 
SBA's processes for administering and monitoring grants, and 
the effectiveness of the program in reaching its goals.
    My testimony today is based on our report, which is being 
released at this hearing. Today, I will discuss two items: one, 
the extent to which SBA's STEP grants management process 
provides reasonable assurance of compliance with selected 
requirements of applicable law, and two, the extent to which 
SBA has responded to states' challenges in using grant funds.
    First, we found that SBA does not provide reasonable 
assurance that STEP grant recipients meet two of the three 
Trade Facilitation and Trade Enforcement Act requirements that 
we reviewed before the grant is closed out.
    The first requirement states that SBA must limit the amount 
given to the 10 states with the largest numbers of eligible 
small businesses. SBA demonstrated reasonable assurance that 
this first requirement was being met.
    The second requirement is that states must provide either a 
25 or 35 percent total match to the Federal grant amount. We 
identified four instances where according to SBA's 
documentation, states did not report sufficient total matches. 
Nevertheless, SBA closed these grants.
    The third requirement is that a state's match cannot be 
less than 50 percent cash. SBA collects information about the 
matching funds, including the proportion provided in cash. 
However, it does not monitor states' compliance with this 
requirement. Additionally, SBA considers the salaries of state 
trade office staff who work on administering the grant to be a 
form of cash and most states use staff salaries as their total 
match, including the required cash portion.
    SBA does not ensure that states that do this are not also 
using grant funds from STEP to pay for portions of these 
salaries. As a result, SBA cannot consistently determine 
whether states are meeting the cash match requirement.
    In our report, we recommend that SBA establish a process to 
ensure documentation of states' compliance with the total match 
requirement and develop a process to determine states' 
compliance with the cash match requirement. SBA agreed with 
these recommendations.
    Our second finding is related to the overall use of grant 
funds and the challenges that states report in using their 
allocations. We found that nearly 20 percent of grant funds go 
unused each year despite SBA officials stating that they seek 
100 percent use of these funds. For example, in 2016, across 41 
of the 43 recipient states, combined grant use was about 82 
percent, leaving nearly $3.2 million unused. This includes one 
state that left nearly 95 percent of its funds unused that 
year.
    SBA made some changes to the program that could improve 
states' abilities to use all their grant funds, such as 
extending the fund's usage period to 2 years; allowing certain 
flexibilities, including travel; and reducing the length of the 
technical proposal.
    The 12 states we interviewed cited numerous challenges, 
including timing of the application and award processes, 
administrative burden, and communication between the states and 
SBA. We heard about variable and short application timeframes, 
inflexible application requirements, a difficult process for 
repurposing funds, burdensome and changing reporting 
requirements, and delayed and inconsistent communication of 
requirements from SBA. SBA does not assess and address the risk 
posed by some states' low use of funds. Also, SBA officials 
told us that while they informally collect feedback from 
states, there is no process to collect states' perspectives on 
challenges with the program. We recommended that SBA assess 
this risk to achieving program goals posed by some states' low 
grant fund use rates. We also recommended that SBA enhance 
collection and sharing of best practices among states. SBA 
agreed with these recommendations.
    Thank you again for the opportunity to testify. I am happy 
to answer any questions you may have.
    Chairwoman FINKENAUER. Thank you, Ms. Gianopoulos.
    Mr. Ware, you are now recognized for 5 minutes.

              STATEMENT OF HANNIBAL ``MIKE'' WARE

    Mr. WARE. Thank you, Chairwoman Finkenauer, Ranking Member 
Joyce, and distinguished members of the Subcommittee. Thank you 
for the opportunity to be here today and for your continued 
support of the Office of Inspector General. I am proud to 
represent the dedicated men and women of my office and speak to 
you about their important work.
    We have published three reports and written one management 
advisory regarding what is now known as the State Trade 
Expansion Program, or STEP. Across these three reports, we made 
22 recommendations, all of which are now considered closed.
    While the STEP program has benefitted from congressional 
scrutiny, OIG oversight, and most recently oversight by my 
colleagues at GAO, my office has identified systemic risks to 
SBA's grant management practices that are important in context 
of today's discussion.
    Our first STEP review was conducted pursuant to the Small 
Business Jobs Act of 2010, which authorized SBA to establish a 
STEP grant program as a 3-year pilot to increase the number of 
eligible small business concerns in states that export and to 
increase the export value of those eligible small businesses 
that already export. In 2015, Congress authorized STEP as a 
full-fledged program through the Trade Facilitation and Trade 
Enforcement Act of 2015. Our two most recent reports were 
mandated by the 2015 act.
    We conducted our 2012 audit of the pilot program to 
determine the extent to which the grant recipients were 
measuring program performance. To achieve our objectives, we 
reviewed the Small Business Jobs Act of 2010 and the Fiscal 
Year 2011 STEP program announcement. We judgmentally selected 
all STEP grants exceeding $1 million to review. Six grant 
recipients met this threshold. We conducted site visits to 
California, Pennsylvania, Washington, Michigan, and Illinois. 
We found that STEP grant recipients did not implement adequate 
metrics to measure program performance and issued nine 
recommendations for corrective action. In addition, SBA granted 
more than $1 million to an ineligible applicant, the 
Commonwealth of the Northern Mariana Islands, which was the 
subject of our advisory report. In response, Congress included 
an expanded definition of state in the 2015 act which resolved 
the issue in the advisory.
    Our second STEP review was performed to determine how STEP 
funds were used. We requested grant award and expenditure 
totals from SBA, queried STEP data from usaspending.gov, and 
selected 15 grant awards totaling $15.2 million. We found that 
SBA could not provide consistent STEP award and expenditure 
data and did not update usaspending.gov. We did, however, find 
that SBA implemented new reporting requirements for the fiscal 
year 2014 STEP program that significantly improved controls 
over the quality of the grant recipients' performance and 
financial reports. We issued three recommendations based on our 
review findings.
    Our final report we issued was also issued pursuant to the 
2015 act authorizing STEP. The objectives of the audit were to 
determine the extent to which STEP recipients measure program 
activity performance and the results of those measurements. It 
is noteworthy that Congress included certain performance 
measures within the 2015 authorization as a follow-on to our 
findings that SBA lacked adequate metrics in the pilot stage.
    We selected five cooperative agreement awards totaling $3.9 
million, conducted site visits and obtained documentation from 
recipients in California, North Carolina, Washington, and 
Mississippi. We also interviewed and obtained documentation 
from cooperative agreement officials for Illinois.
    We found SBA has made significant progress in improving the 
overall management and effectiveness of STEP since our audit of 
the pilot program in 2012; however, SBA could utilize existing 
data to further improve its performance measures and program 
oversight. We issued six recommendations based on our review 
findings.
    It is safe to say the STEP program has evolved since its 
inception and has benefitted from oversight review from my 
office, GAO, and congressional scrutiny. Nonetheless, our 
reviews of SBA's grant programs continue to identify systemic 
issues with SBA's accuracy of grant data for both financial and 
performance reporting, ineffective oversight, and inadequate 
standard operating procedures.
    In our most recently published, most serious management and 
performance challenges facing SBA in fiscal year 2019, we 
identified grant management as an agency challenge for the 
first time. SBA officials acknowledge that there are systemic 
issues with its grant management processes and have documented 
plans to address them. That said, we will continue to perform 
reviews and make recommendations for corrective action to 
promote efficiencies and effectiveness within SBA's grant 
programs.
    Thank you for the opportunity to speak to you today. I look 
forward to your questions.
    Chairwoman FINKENAUER. Thank you, Mr. Ware.
    You guys are very good on time. Oh, my goodness.
    Mr. WARE. Exactly on the 5 minute mark.
    Chairwoman FINKENAUER. Exactly. Thank you all. We really 
appreciate everything you have shared with us.
    I will begin the questioning by recognizing myself for 5 
minutes.
    The first question is for Ms. Gianopoulos. Trade is 
obviously a priority for me and for the state of Iowa, which is 
why I am so pleased that our first hearing is on how small 
business trade assistance programs can work better for farmers 
and small businesses but also our states. Iowa is the number 
one export state for corn and pork, and number two for 
soybeans. Iowa is also number two in the country overall for 
commodities behind California. I am sure the administration 
shares the goal of improving small business trade assistance 
programs, as well, so I hope this is a bipartisan issue.
    For GAO's report, you interviewed 12 states that left at 
least 25 percent of their grant funds unused. Why do some 
states spend all their money while others are struggling to do 
so?
    Ms. GIANOPOULOS. When we spoke with the states, they gave 
us a variety of responses as far as the barriers and challenges 
that they experienced in trying to use some of the grant monies 
that they received from SBA. I touched on them a little bit in 
my oral testimony but they included everything from the, as you 
mentioned earlier in your opening statement, Chairwoman, the 
application deadline. It is not always the same day or the same 
week every year so some folks who have very small state trade 
offices cannot plan in advance when to dedicate their time to 
this application process.
    As you also noted, sometimes things change. The reporting 
requirements change. In other cases, the states have difficulty 
in repurposing funds. For example, we heard one story where a 
state was unable to attend a trade conference overseas because 
things had changed or certain companies had dropped out and 
they had a very difficult time getting those funds repurposed 
through SBA. So in some cases it is the timing that works 
against the states and in other cases it has to do with the 
management of the program itself.
    Chairwoman FINKENAUER. Got it. Thank you.
    My next question is for Mr. Ware. You also found that grant 
recipients did not expend all the funds awarded. In response to 
your findings, SBA enhanced its oversight procedures so that 
the program managers are monitoring states to ensure they are 
meeting their quarterly goals. What could SBA do to make it 
easier for recipients to use funds? Has the appropriations 
process impacted states' abilities to utilize the funds?
    Mr. WARE. I believe that the appropriations process has 
impacted the states' ability. I mean, the states are on record 
as my colleague stated of discussing the difficulties they have 
with the short timeframe, and it is compounded, of course, when 
the short timeframe is made even shorter. Relative to spending, 
I think one of the things that SBA did was after our last 
audit, they increased the period of performance time which 
should take some of the pressure off the states in terms of 
spending. But I caution that that does come with its own set of 
challenges that I could get into but I am sure that answers 
your question, or I hope it does.
    Chairwoman FINKENAUER. Great. Thank you.
    I thank both of you for being here. This is enlightening 
and there is clearly a lot that we need to be doing better. 
STEP is a great program and we need to make sure that it is 
implemented in a way that our states and our small businesses 
can get what they need to be able to grow. I really appreciate 
your time and look forward to ongoing discussions.
    With that, I am going to yield back my time. The Ranking 
Member, Dr. Joyce, is now recognized for 5 minutes.
    Mr. JOYCE. Thank you, Madam Chairwoman.
    My first question is for Mr. Ware. The SBA's OIG identified 
what truly were systemic issues with the SBA's financial and 
performance oversight. These grant programs and the elevation 
of this by this review show that these issues into 2019 had 
management and performance challenges in the report. How do 
STEP's management issues compare to other SBA grant programs?
    Mr. WARE. Thank you. It goes hand in hand. The same type of 
problems we find in STEP, we find in the other programs. It is 
basically two things. So it is inaccurate data and it is not 
enough oversight or inadequate oversight. And when I say they 
go together it is that those problems are what we find 
systematically across just about every grant program that we 
look at, which was the reason why we elevated it to a top 
management challenge and notified the agency.
    Mr. JOYCE. Has the SBA Office of Grants Management made any 
changes based on the recommendations in the report, and how 
long will it take for this reform to take place?
    Mr. WARE. They have made changes. And I will give you some 
of the ways they did. They did the earlier detection in terms 
of a risk management process by which they visit states based 
on risk that are not spending on time based on the quarterly 
reviews of the performance data now. And they also came up with 
an agency-wide data quality plan that they are supposed to 
implement across the board on all their grant programs. They 
provided us with sufficient documentation to prove that they 
have put those things in place. We have not done the work yet 
to determine the impact of those changes.
    Mr. JOYCE. How can Congress monitor SBA implementation 
progress?
    Mr. WARE. One way Congress can monitor the implementation 
progress is by the work that both GAO and the Office of 
Inspector General does in terms of that.
    Mr. JOYCE. And finally, how will grant management reforms 
impact the STEP program?
    Mr. WARE. It should impact it significantly, mainly because 
we want a transparent, well-functioning program that has the 
right level of oversight on it and that is providing the type 
of performance measures data that Congress can use to provide 
the type of oversight. And I think that based on our work, they 
have come a long way in terms of that. Like, for example, in 
the past they only did the rate of return on investment as the 
true measurement. They have since stepped that up based on our 
recommendations to provide measures more in line with what the 
authorizing language asks for.
    Mr. JOYCE. And will the better management help states use 
these funds, fully implement the access to these funds?
    Mr. WARE. I believe so, especially in regard to the early 
detection of states who are struggling to use their funds.
    Mr. JOYCE. Thank you very much.
    My next questions are for Ms. Gianopoulos. Your report 
found that the SBA does not have sufficient processes to ensure 
that states meet the total and cash match requirements mandated 
by the statute. Can you explain total and cash match 
requirements and why they are mandated?
    Ms. GIANOPOULOS. Sure. So the total matching requirement 
that a state has to meet is 25 percent of the total amount that 
they are going to receive. So, for example, if a state was 
going to spend $100 on export promotion, $75 of that could come 
from the STEP program and $25 would come from the state itself. 
And of that $25, $12.50 would have to be in cash and the other 
$12.50 could be either in cash or by some other way, either an 
indirect or an in-kind contribution, that sort of thing. So 
that is what TFTEA, the Trade Facilitation and Trade 
Enforcement Act requires when it updated the program and made 
it a permanent program. So what we found were there were some 
difficulties that SBA had in not only confirming that the match 
had been met, but also that the cash match was being met with 
actual cash. As I explained in my statement, there were some 
issues having to do with staff salaries being used as part of 
that or all of the cash match, and it was unclear to us whether 
that was actually following the guidance that was put forward 
in order to meet the requirements of TFTEA.
    Mr. JOYCE. Now, you mentioned indirect costs and in-kind 
contributions. Can you tell me more about that? Can you 
directly address what representation of that would be?
    Ms. GIANOPOULOS. Sure. So, indirect costs and in-kind 
contributions are the noncash options that a state can use to 
help provide its portion of the program. So they could offer a 
conference space for a meeting. They could use the utility of 
their travel offices to arrange overseas travel for some of 
these conferences. It is the different types of services that 
the state can provide that would not be something you would see 
on a balance sheet but could be valued in various ways by the 
states to meet their requirement.
    Mr. JOYCE. And how do you monitor the----
    Chairwoman FINKENAUER. Thank you. The gentleman's time has 
expired but we will allow for more questions after this as 
well.
    Mr. JOYCE. I yield back. Thank you.
    Chairwoman FINKENAUER. Yes, thank you.
    The gentleman, Mr. Hagedorn, from Minnesota, is now 
recognized for 5 minutes.
    Mr. HAGEDORN. I thank the Chair and the Ranking Member and 
the witnesses. Appreciate all the work done by staff, including 
my own. Thanks for putting this together.
    It is a timely hearing. This is National Agriculture Week, 
so anything we can do to help our farmers and agribusinesses, 
especially expand in area of trade, is very important. And as 
somebody who also sits on the Agriculture Committee, I have a 
vested interest in this in a number of ways.
    Our farmers and agribusinesses, not just in Southern 
Minnesota where I represent that district, but across the 
country, many of them have been in recession one way or another 
for the better part of 5 years. We have had low commodity 
prices, high input costs, and all this predates anything with 
the trade issue.
    And so what we try to do, at least my goals with 
agriculture and being here, three things for our farmers: Make 
sure that we can do everything possible to reform the Federal 
Government so we have good government policies in the areas of 
regulation, health care, taxes, energy, you know, work 
requirements for welfare, whatever, to make sure that we drive 
down the cost of farming as much as possible, and make sure 
that we have the workforce there for our farmers. Secondarily, 
we want to sustain our farmers when times are tough, and we do 
that with implementation of the 5-year Farm Bill, E-15 year-
round, things of that nature. And third, and this is the 
critical part where we have an opportunity at the Federal 
Government, the Federal role, expand our exports. Drop down 
those barriers. Make sure that we have new markets around the 
world.
    In southern Minnesota, we have about 20,000 farms. It is a 
highly rural area. It happens to also have the urban spot of 
Rochester where we have the preeminent institution of medicine 
in all the world, the Mayo Clinic, but mostly farms. A lot of 
good crop and livestock producers. The second largest hog 
production congressional district in the whole country. And so 
each one of those farms, each one of those farmers is producing 
enough to feed about 165 people. And we see that that reach is 
not just across the country but the whole world.
    And so when we get into what is going on with these 
programs and how they can be better utilized, do you think we 
should track closer as to how much of this money it spent on 
direct work trying to promote farmers and agribusinesses and 
our commodities? And secondarily, and I will ask both of you, 
do you work closely with USDA to try to implement these things? 
Are there measures that we should take to make sure that we are 
not duplicating costs but we are using our monies as 
efficiently and effectively as possible?
    Mr. WARE. I believe your first question was should we track 
what goes to the farms differently?
    Mr. HAGEDORN. Well, just how do you track the money? For 
instance, in Minnesota, we spent, I think it was like $150,000, 
something like that. Do we track exactly what we are trying to 
do with those monies or do you get to that level in your 
reports?
    Mr. WARE. In my reports, we stay programmatic in line with 
the mandate for us. We did not go into exactly what the states 
were using the money for.
    Mr. HAGEDORN. Should we do more in that area of tracking 
the money? What would that require? How would we get that done?
    Mr. WARE. Well, it is a different scope for us if we were 
to do that. The act says that we are supposed to look at XYZ. 
In order for us to do something like that it would just be a 
different focus, a different scope. And if the member wanted to 
request of my office that we did something like that, we are 
definitely open to it.
    Mr. HAGEDORN. Okay.
    Ms. GIANOPOULOS. So when we started our work, as you know, 
we looked at the 12 states that used less than 75 percent of 
their allocation in 2015. And I am just looking now at my 
statistics. Your home state Minnesota was actually the one that 
used only 23.3 percent of its 2015 STEP allocation. We did 
pursue possibly looking into the kinds of things that each STEP 
grant was used for, but because the IG identified the issues 
with the reliability of the data that SBA had, we were unable 
to do that. Now, anecdotally, when we spoke with the 12 
different states, we did hear a number of different industries 
that were benefitting from the STEP program, such as heavy 
manufacturing, medical equipment, food and beverage, consumer 
appliances, that sort of thing, but that is purely anecdotal 
and cannot be generalized. So we do not have specific 
information but I did want to share that with you that your 
state was one of the ones that we spoke with about the low use 
rate.
    Mr. HAGEDORN. Well, that is very useful, and we will follow 
up on that. I appreciate your testimony. I yield back.
    Chairwoman FINKENAUER. Thank you. Now we will go into a 
second round of questions. There is a lot to talk about here 
today. I will begin by recognizing myself for another 5 
minutes. My first question, again, will be for Ms. Gianopoulos.
    According to your report, SBA told you that it does not 
formally facilitate the sharing of best practices between 
states. You recommend that SBA enhance its identification and 
sharing of best practices. How might this improve the program? 
And do you have any thoughts on how this can be achieved?
    Ms. GIANOPOULOS. Well, we did not specifically tell SBA how 
it should be achieved because we wanted them to work within the 
parameters and the resources that they had available to them. 
But there are a number of ways, and we have noted in other 
reports some suggestions of how not only states but also 
agencies can share best practices and information. What the SBA 
officials told us is that they perhaps informally--
anecdotally--speak with a particular state regarding the 
difficulty it might be having in using its grant funds but 
there is no systematic way. And when we spoke with the 12 
states they told us there is no systematic way that they can 
learn from each other--other than through outside organizations 
such as State International Development Office (SIDO) and that 
sort of thing--to learn from each other what it is that is 
working and not working for a particular state. And we realize 
that every state's situation is a little bit different, but 
because the 12 states we talked to were so variable, they were 
small states, large states, urban and rural, all different in 
and of themselves, there should be some way that SBA could 
facilitate that sharing of information in order to better use 
the money and better achieve the program goals.
    Chairwoman FINKENAUER. Absolutely. Thank you.
    Mr. Ware, metrics are obviously a very valuable tool in 
measuring the success of a program, but they also let us know 
where to make improvements. How can we better measure the 
success of the program in terms of increasing exports and the 
number of small businesses that export?
    Mr. WARE. Right. That is a good question. And I think it is 
a question that we asked based on our recommendations for SBA 
to do. And we believe that they have now done that in terms of 
addressing what the mandate was, which was to increase the 
small businesses that do exports. As I think I said earlier, 
they were focused so much on the return on investment that was 
being reported, and as a matter of fact, that is what was 
mandated to be reported. What the body could possibly do is in 
the new version is to make some of those measurements, the ones 
that they are now doing as a result of our recommendations, 
perhaps make those mandatory as well. And on top of that there 
is a lot of room out there for outcome-based recommendations 
and there are other, like someone said, six other places that 
are doing this. So there should be best practices, like we were 
just discussing, out there on how best to measure this program 
if you are really focused on determining the true impact of the 
program in the states.
    Chairwoman FINKENAUER. Great. Thank you.
    I will yield back the rest of my time.
    And I would like to again recognize the Ranking Member, Dr. 
Joyce, for 5 minutes.
    Mr. JOYCE. Thank you, Madam Chairwoman.
    This is for Mr. Ware. We heard earlier that the 
Commonwealth of the Northern Mariana Islands was awarded a STEP 
grant and they were actually an ineligible recipient at that 
time. Testimony says that OIT personnel did not have the 
experience or training required to manage and administer such a 
complex grant program. What has SBA OIT done to ensure its 
staff now fully understands STEP's statutory requirements?
    Mr. WARE. At the time that happened, it was still in the 
pilot. So it was very much in the beginning. As a result of our 
recommendations, they did implement a training program and 
trained all the grant managers across the board. Now, that 
being said, keep in mind that it is not like contracting 
officers where they have a requirement to do annual training or 
anything like that. They did training at that time and they 
have implemented steps to make sure that they provide the 
training going forward. And that is something that they are 
doing across the board for all the grant programs right now.
    Mr. JOYCE. So along that same line, how are the states made 
aware and held accountable for the STEP's legal requirements? 
Is that training extended to individual states?
    Mr. WARE. We did not look at the training to the individual 
states. However, the grant managers from a systematic 
standpoint of SBA's oversight of the program, that was covered 
in the training.
    Mr. JOYCE. This question is for Ms. Gianopoulos.
    Several states claim that STEP reporting requirements were 
much more detailed and burdensome than grants from the 
Department of Commerce and other agencies. Can you provide me 
with more details on this, please?
    Ms. GIANOPOULOS. Well, what we heard from the 12 states 
that we interviewed is that some of the difficulties in using 
all of their funds had to do with the level of detail with 
which they had to report back the use of those funds or to ask 
for reimbursement. So, for example, one of the states told us 
that when a group of trade folks were traveling say to a 
conference, in order to request reimbursement of that money, if 
they were all in a cab together they had to divide the cost of 
the cab and claim it individually by person, which made for--
and that was only one example--a great deal of administrative 
burden for them and made it very difficult. And in some cases 
they were even having second thoughts about applying for the 
grant the next year because of the amount of burden it was on 
them--to request that money back. And in some cases that money 
is such a small amount, even though it is important to them, 
they had to do a cost-benefit analysis as to whether it was 
worth their time in order to get that money back as part of the 
STEP grant.
    Mr. JOYCE. Do find that then states apply for less 
burdensome application processes? Are they reaching out in 
other directions when facing such obstacles?
    Ms. GIANOPOULOS. We did not really get into a lot of detail 
with where they put their efforts, but because the size of the 
state trade offices varies so widely, the very small state 
trade offices have to make choices as to where they are going 
to put their time. And as I mentioned earlier, because this 
program does not follow a set standard routine every year, it 
is not available on the same day every year, it is not the same 
amount of time every year, they have to make those types of 
choices state by state by state as to what they are going to 
apply for and how they are going to use their resources.
    Mr. JOYCE. Would you presume that they do reach out to less 
burdensome application processes?
    Ms. GIANOPOULOS. I have not talked with them about that, 
but if I were making a decision as far as what I was going to 
do with my resources and my time, I would want the most bang 
for my buck.
    Mr. JOYCE. That makes sense.
    Thank you both for your concise answers. I yield back my 
time.
    Chairwoman FINKENAUER. Thank you. Thank you very much to 
both of you for being here today, for your public service, and 
for taking out so much time out of your schedule. It really 
means a lot, and this was a very informative day. Ms. 
Gianopoulos and Mr. Ware, we are very grateful.
    As we have heard today, STEP offers many promising 
opportunities for entrepreneurs and farmers in Iowa and across 
the country to succeed. Over the past decade, STEP has grown 
from a 3-year pilot program to a permanent, successful program 
in SBA that with some improvements will be a critical piece of 
a trade assistance portfolio. I appreciate your work in 
identifying some of the systemic issues that we need to 
resolve. It has led to significant improvements in the 
implementation of the law. More work, obviously, needs to be 
done. In my role as the Chairwoman of the Subcommittee on Rural 
Development, Agriculture, Trade, and Entrepreneurship, I look 
forward to working with my colleagues on both sides of the 
aisle to make much-needed improvements in STEP. I am committed 
to making life easier for small business owners in Iowa and 
across rural America so that they can grow their small 
businesses and better support their families and our rural 
communities.
    I would ask unanimous consent that members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    If there is no further business to come before the 
Committee, we are adjourned. Thank you.
    [Whereupon, at 11:58 a.m., the subcommittee was adjourned.]
    
                            A P P E N D I X
                            
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            



                                 <all>
</pre></body></html>
